CERTIFICATE OF COMPLIANCE
No. 20-1279
Angelica Castañon, et al.,
Appellants,
v.
United States of America, et al.,
Appellees.
ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
As required by Supreme Court Rule 33.1(h), I certify that the Opposition to
Appellees’ Motion to Dismiss or Affirm contains 2,999 words, including footnotes
but excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). In making this certification, I have relied on the word count of the wordprocessing system used to prepare this Brief.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the
foregoing is true and correct.
Executed on July 28, 2021.

/s/ Christopher J. Wright
Christopher J. Wright
Harris, Wiltshire & Grannis LLP
1919 M Street NW, Floor 8
Washington, DC 20036
(202) 730-1300
cwright@hwglaw.com
Counsel for Appellants

